<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee did not hold formal 
hearings for the Government Printing Office and the Office of 
Compliance. Following are the statements submitted by them and 
the answers to questions submitted to them by the 
subcommittee:]

                         DEPARTMENTAL WITNESSES


                       Government Printing Office

        Prepared Statement of Davita Vance-Cooks, Public Printer
    Chairwoman Shaheen, Ranking Member Hoeven, and Members of the 
Subcommittee on Legislative Branch Appropriations, I have the honor to 
submit the appropriations request of the Government Printing Office 
(GPO) for fiscal year 2015. As background, my prepared statement 
provides an overview of GPO's functions and operations.
                       government printing office
    The Government Printing Office (GPO) is the OFFICIAL, DIGITAL, 
SECURE resource for producing, procuring, cataloging, indexing, 
authenticating, disseminating, and preserving the official information 
products of the Federal Government.
    Under title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now an integrated 
publishing operation and carry out our mission using an expanding range 
of digital as well as conventional formats. Total GPO employment today 
is 1,879.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov), 
which today makes nearly one million Federal titles available online 
from both GPO's servers and links to servers in other agencies, and in 
2013 averaged 38.7 million downloads per month (with a spike up to 47.5 
million retrievals during the recent Government shutdown). There have 
been over 1 billion retrievals from this system since it replaced our 
original Web site, GPO Access. We also provide public access to 
Government information through partnerships with approximately 1,200 
libraries nationwide participating in the Federal Depository Library 
Program.
    In addition to GPO's Web site, www.gpo.gov, we communicate with the 
public routinely via Twitter twitter.com/USGPO, YouTube youtube.com/
user/gpoprinter, Facebook facebook.com/USGPO, our Government Book Blog 
govbooktalk.gpo.gov, and most recently Pinterest http://pinterest.com/
usgpo/.
    History.--From the Mayflower Compact to the Declaration of 
Independence and the papers leading to the creation and ratification of 
the Constitution, America is a nation based on documents, and our 
governmental tradition since then has reflected that fact. Article I, 
section 5 of the Constitution requires that ``each House shall keep a 
journal of its proceedings and from time to time publish the same.'' 
After years of struggling with various systems of contracting for 
printed documents that were beset with scandal and corruption, in 1860 
Congress created the Government Printing Office as its official 
printer. GPO first opened its doors for business on March 4, 1861, the 
same day Abraham Lincoln was inaugurated as the 16th President.
    Since that time, GPO has produced and distributed the official 
version of every great American state paper--and an uncounted number of 
other Government publications, documents, and forms--including the 
Emancipation Proclamation, the legislative publications and acts of 
Congress, Social Security cards, Medicare and Medicaid information, 
census forms, tax forms, citizenship forms, passports, military 
histories ranging from the Official Records of the War of the Rebellion 
to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. This work goes on today, in both digital and print forms.
    Strategic Vision and Plan.--GPO is transforming from a print-
centric to a content-centric publishing operation. In fiscal year 2015 
and the years ahead, GPO will continue to develop an integrated, 
diversified product and services portfolio that primarily focuses on 
digital. Although industry experts predict tangible print will continue 
to be required because of official use, archival purposes, 
authenticity, specific industry requirements, and segments of the 
population that either have limited or no access to digital formats, we 
recognize that the volume of tangible print that is requisitioned from 
GPO will continue to decline.
    Our 5-year strategic plan, 2014-2018, which is available for public 
review at www.gpo.gov/about/, is built around four continuing strategic 
goals: satisfying our stakeholders, offering products and services, 
strengthening our organizational foundation, and engaging our 
workforce. The plan provides the blueprint for how GPO will continue to 
achieve its mission of Keeping America Informed with an emphasis on 
being OFFICIAL, DIGITAL, SECURE. GPO's senior managers convene at the 
beginning of the fiscal year to review the plan and approve it before 
it is issued.
    Technology Transformation.--GPO has continually transformed itself 
throughout its history by adapting to changing technologies. In the 
ink-on-paper era, this meant moving from hand-set to machine 
typesetting, from slower to high-speed presses, and from hand to 
automated bookbinding. These changes were significant for their time.
    Yet they pale by comparison with the transformation that 
accompanied our incorporation of electronic information technologies, 
which began over 50 years ago in 1962 when the Joint Committee on 
Printing directed the agency to develop a new system of computer-based 
composition. That order led to the development of GPO's first 
electronic photocomposition system, which by the early 1980's had 
completely supplanted machine-based hot metal typesetting. Following 
the enactment of the GPO Electronic Information Access Enhancement Act 
in 1993, the databases generated by our composition system were 
uploaded to the Internet via GPO's first Web site, GPO Access, vastly 
expanding the agency's information dissemination capabilities. Those 
functions continue today with FDsys on a more complex and comprehensive 
scale.
    As a result of these sweeping technology changes, GPO is now 
fundamentally different from what it was as recently as a generation 
ago: smaller, leaner, and equipped with digital production capabilities 
that are the bedrock of the information systems relied upon daily by 
Congress, Federal agencies, and the public to ensure open and 
transparent Government in the digital era. As we prepare GPO for the 
Government information environment and technology challenges of the 
future, our transformation is continuing with the development of new 
ways of delivering Government information, including apps and bulk data 
download files.
                            gpo and congress
    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO produces the documents and 
publications required by the legislative and oversight processes of 
Congress. This includes the daily Congressional Record, bills, reports, 
legislative calendars, hearings, committee prints, and documents, as 
well as stationery, franked envelopes, memorials and condolence books, 
programs and invitations, phone books, and the other products needed to 
conduct the legislative business of Congress. We also detail expert 
staff to support the publishing requirements of House and Senate 
committees and congressional offices such as the House and Senate 
Offices of Legislative Counsel. We work with Congress to ensure the 
provision of these services under any circumstances through continuity-
of-operations (COOP) planning.
    Today the activities associated with creating congressional 
information databases comprise the vast majority of the work funded by 
our annual Congressional Printing and Binding Appropriation. In 
addition to using these databases to produce printed products as 
required by Congress, GPO makes them available to the Internet via 
FDsys, and they are the source of the apps we build for congressional 
information. Our advanced digital authentication system, supported by 
public key infrastructure (PKI), is an essential component for assuring 
the digital security of congressional documents.
    GPO's congressional information systems also form the building 
blocks of other information systems supporting Congress. Our 
congressional information databases are provided directly to the 
Library of Congress to support its new Congress.gov system as well as 
the legislative information systems the Library makes available to 
House and Senate offices. We are collaborating with the Library on the 
digitization of previously printed documents, such as the Congressional 
Record dating from 1873 to 1998, to make them more broadly available to 
Congress and the public.
    GPO Cuts the Cost of Congressional Work.--The use of electronic 
information technologies by GPO has been a principal contributor to 
lowering the cost, in real economic terms, of congressional information 
products. In fiscal year 1980, as we began replacing hot metal 
typesetting with electronic photocomposition, the appropriation for our 
Congressional Printing and Binding Appropriation was $91.6 million, the 
equivalent in today's dollars of $259 million. By comparison, our 
approved funding for fiscal year 2014 is $79.7 million, a reduction of 
more than two-thirds in constant dollar terms.
    Productivity increases resulting from technology have enabled us to 
make substantial reductions in staffing requirements while continuing 
to improve services for Congress. In 1980, GPO employment was 6,450. 
Today, we have 1,879 employees on board, representing a reduction of 
4,571, or more than 70 percent. This is the smallest GPO workforce of 
any time in the past century.
    Highlights of Fiscal Year 2013 Congressional Work.--In 2013, we 
released a version of the 113th Congress Mobile Member Guide app, which 
contains data equivalent to the Congressional Pictorial Directory, with 
further updates to be completed this year.
    At the direction of the House Appropriations Committee, and in 
support of the House's task force on bulk data, in 2013 we worked with 
the Library of Congress to make House bill summaries prepared by the 
Congressional Research Service available in XML bulk data format, from 
the beginning of the 113th Congress. This follows the work we have done 
to make House bills available in XML bulk data format, beginning with 
the 113th Congress.
    On September 17, 2013, Constitution Day, GPO and the Library of 
Congress jointly announced the results of a project to produce and 
update the Constitution Annotated, via the Web, an app, and a new print 
version. The 2013 edition marks the centennial of this highly regarded 
publication, which now is more broadly accessible than ever, with a new 
schedule for digital updates as Supreme Court decisions are announced.
    The 2013 Presidential inauguration included the work GPO provided 
under the direction of the Joint Congressional Committee on Inaugural 
Ceremonies. We designed and produced approximately 80 different 
products for the event, including invitations, tickets, signs, pins, 
and other items that supported the organization and conduct of the 
inaugural ceremonies. We also produced secure credentials for the event 
at the request of the U.S. Capitol Police, as we did for the 2009 
Presidential inauguration.
                        gpo and federal agencies
    Federal agencies are major generators of information in the United 
States, and GPO produces their information products for official use 
and public access. Federal agencies and the public also rely on a 
growing variety of secure credentials produced by GPO, including 
travelers holding U.S. passports, Medicare beneficiaries in Puerto 
Rico, and other users. Our digital systems support key Federal agency 
publications, including the annual Budget of the U.S. Government and, 
most importantly, the Federal Register and associated products. As it 
does for congressional documents, our digital authentication system, 
supported by public key infrastructure (PKI), assures the digital 
security of agency documents. GPO does not receive appropriations to 
produce work for Federal agencies. Instead, we provide products and 
services on a reimbursable basis.
    Highlights of Fiscal Year 2013 Agency Operations.--For the past 2 
years we have made the Budget of the U.S. Government available as a 
mobile app. In 2013, the fiscal year 2014 Budget on FDsys had nearly 
122,000 users in the first few days of availability, and our mobile Web 
app had approximately 62,000 users.
    One of GPO's major agency customers is the Office of the Federal 
Register (OFR), which produces the daily Federal Register and related 
publications such as the Code of Federal Regulations, and other key 
information products like the Daily Compilation of Presidential 
Documents and the Public Papers of the President. GPO produces these 
publications in both digital and print formats.
    A major document that GPO produces is the U.S. passport for the 
Department of State, which we have been responsible for since 1926. At 
one time no more than a conventionally printed document, the U.S. 
passport since 2005 has incorporated a digital chip and antenna array 
capable of carrying biometric identification data. With other security 
printing features, this document--which we produce in Washington, DC, 
as well as a secure remote facility in Mississippi--is now the most 
secure identification credential obtainable. In 2013, we began work on 
development of the next generation passport, a project that we now have 
underway.
    Since 2008, we have served as an integrator of secure 
identification smart cards to support the credentialing requirements of 
Federal agencies and other Government entities. Our secure credential 
unit has been certified by the General Services Administration (GSA) as 
the only government-to-government provider of credentials meeting the 
requirements of Homeland Security Presidential Directive 12 (HSPD-12). 
In 2013, following the approval of the Joint Committee on Printing, we 
completed the installation of a COOP facility for card production at 
our facility in Mississippi on time and under budget, and began 
operations.
    Partnership with Industry.--Other than congressional and other work 
such as the Federal Register, the Budget, and secure and intelligent 
documents, we produce virtually all other Federal agency information 
product requirements via contracts in partnership with the private 
sector printing and information product industry. In fiscal year 2013 
this work amounted to about $300 million. Approximately 16,000 
individual firms are registered to do business with GPO, the vast 
majority of whom are small businesses averaging 20 employees per firm. 
Contracts are awarded on a purely competitive basis; there are no set-
asides or preferences in contracting other than what is specified in 
law and regulation, including a requirement for Buy American. This 
partnership provides great economic opportunity for the private sector.
                  gpo and open, transparent government
    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

        A popular Government without popular information, or the means 
        of acquiring it, is but a Prologue to a Farce or a Tragedy, or 
        perhaps both. Knowledge will forever govern ignorance, and a 
        people who mean to be their own Governors, must arm themselves 
        with the power which knowledge gives.

    GPO operates a variety of programs that provide the public with 
``the means of acquiring'' Government information that Madison spoke 
of. These include the Federal Depository Library Program (FDLP), GPO's 
Federal Digital System (FDsys), our Publications and Information Sales 
and Reimbursable Distribution programs, and social media.
    Federal Depository Library Program (FDLP).--The FDLP has 
legislative antecedents that date back 200 years, to 1813. Across those 
years, depository libraries have served as critical links between ``We 
the People'' and the information made available by the Federal 
Government. GPO provides the libraries with information products in 
digital and, in some cases, tangible formats, and the libraries in turn 
make these available to the public at no charge while providing 
additional help and assistance to depository library users. The program 
today serves millions of Americans through a network of approximately 
1,200 public, academic, law, and other libraries located across the 
Nation, averaging nearly three per congressional district. Once limited 
to the distribution of printed and microfiche products, the FDLP today 
is primarily digital, supported by FDsys and other digital resources.
    Federal Digital System (FDsys).--GPO has been providing online 
access to congressional and Federal agency documents since 1994, under 
the requirement of chapter 41 of title 44, U.S.C. Today, FDsys provides 
the majority of congressional and Federal agency content to the FDLP as 
well as other online users. This system has reduced the cost of 
providing public access to Government information significantly when 
compared with print, while expanding public access dramatically through 
the Internet. Currently, FDsys serves as a secure preservation 
repository for nearly one million individual titles from all three 
branches of the Government, the only system of its kind in operation 
today. Public utilization of FDsys has increased substantially. In 
2013, FDsys averaged 38.7 million downloads per month, with a spike up 
to 47.5 million retrievals during the recent Government shutdown. 
Earlier this year, we reported there have been more than 1 billion 
documents retrieved from FDsys since it replaced our original Web site, 
GPO Access. GPO is continually adding collections to FDsys to provide 
increased public access to Government information.
    GPO Achieves Savings in Information Dissemination.--In 1995, the 
first full year of our online operations, the cost of printing and 
distributing millions of copies of printed publications to Federal 
depository libraries nationwide was funded at $17.6 million, the 
equivalent of $26.9 million in constant dollars. For fiscal year 2015, 
we are proposing to fund this function at $8.7 million, a reduction of 
more than 67 percent in constant dollar terms. Along with 
appropriations to GPO's Revolving Fund, we have used the savings from 
reduced printing and distribution costs to pay for the establishment 
and operation of our digital information dissemination operations, 
achieving additional savings for the taxpayers, and vastly expanding 
public access to Government information.
    Publication and Information Sales Program.--Along with the FDLP and 
FDsys, which are no-fee public access programs, GPO provides public 
access to official Federal information through public sales featuring 
secure ordering through an online bookstore, a brick and mortar 
bookstore at GPO headquarters in Washington, DC, and partnerships with 
the private sector that offer Federal publications as eBooks. As a one-
stop shop for eBook design, conversion, and dissemination, our presence 
in the eBook market continues to grow. We now have agreements with 
Apple, Google's eBookstore, Barnes & Noble, OverDrive, Ingram, Zinio, 
and other online vendors to make popular Government titles such as the 
Financial Crisis Inquiry Report available as eBooks. We have made Women 
in Congress and Black Americans in Congress available as eBooks and we 
are working on making Hispanic Americans in Congress available as an 
eBook as well.
    Reimbursable Distribution Program.--We operate distribution 
programs for the information products of other Federal agencies on a 
reimbursable basis, including Consumer Information Center publications 
of the General Services Administration (GSA), from warehouses in 
Pueblo, CO, and Laurel, MD.
    GPO and Social Media.--We use Facebook, Twitter, YouTube, and a 
book blog to share information about GPO news and events and to promote 
specific publications and products. By the end of 2013, we had 2,731 
likes on Facebook, 5,000 followers on Twitter, and 93,705 views across 
nearly 53 videos on YouTube. Our book blog, Government Book Talk, 
focuses on increasing the awareness of new and classic Federal 
publications through reviews and discussions. In February 2013, we 
started up a presence on Pinterest and now have 288 followers pinning 
on 15 boards of Federal Government information.
                             gpo's finances
    Revolving Fund.--All GPO activities are financed through a 
business-like Revolving Fund. The fund is used to pay all of GPO's 
costs in performing congressional and agency printing and publishing, 
printing procurement, and distribution activities. It is reimbursed 
from payments from customer agencies, sales to the public, and 
transfers from GPO's two annual appropriations: the Congressional 
Printing and Binding Appropriation and the Salaries and Expenses 
Appropriation of the Superintendent of Documents. Our appropriations 
constitute approximately 15 percent of our total revenues.
    Appropriated Funds.--GPO's Congressional Printing and Binding 
Appropriation is used to reimburse the Revolving Fund for costs of 
publishing the documents required for the use of Congress in digital 
and print formats. The Salaries and Expenses Appropriation of the 
Superintendent of Documents is used to pay for costs associated with 
depository distribution, cataloging and indexing, statutory 
distribution, and international exchange distribution. The 
reimbursements from these appropriations are included in GPO's 
Revolving Fund as revenue for work performed.
    Fiscal Year 2013 Financial Results.--Revenue totaled $719 million 
while total expenses were $689 million. The expenses include a $1.4 
million beneficial adjustment reflecting a decrease in the GPO long 
term liability for workers' compensation. Before that adjustment and 
net of the accumulation of $20.7 million in reimbursements from the 
State Department reserved for capital investment supporting passport 
production, GPO's operating net income was $7.3 million. Our financial 
statements are audited annually by an independent third party 
contracted for by our Office of Inspector General, and we routinely 
receive an unqualified or ``clean'' opinion.
                fiscal year 2015 appropriations request
    We are requesting a total of $128,919,000 for fiscal year 2015, an 
increase of $9,619,000 or 8.1 percent over the level of funding 
provided for fiscal year 2014 in Public Law 113-76. The increase is 
primarily attributable to the Congressional Printing and Binding 
account due to the currently projected reduction in the availability of 
unexpended prior year funds to offset new funding requirements. The 
other significant component of our increased request is for support of 
GPO's Federal Digital System (FDsys) and our Composition System 
Replacement project as well as necessary facilities maintenance and 
repairs.
    GPO's appropriations request for fiscal year 2015 will enable us 
to:
  --meet projected requirements for GPO's congressional printing and 
        binding operations;
  --fund the operation of GPO's statutory information dissemination 
        programs and provide investment funds for necessary information 
        dissemination projects; and
  --continue the development of FDsys and GPO's Composition System 
        Replacement project and carry out necessary facilities 
        maintenance and repair projects.
    Congressional Printing and Binding Appropriation.--We are 
requesting $85,400,000 for this account. This represents an increase of 
$5,664,000 or 7.1 percent over the level approved in Public Law 113-76. 
Rather than representing an increase in congressional product 
requirements, the increase in due primarily to the reduced availability 
of unexpended prior year funds to offset new funding requirements.
    For fiscal year 2014, we estimated that total congressional 
printing and binding requirements would be $89,487,000. We plan to use 
$9,751,000 of transfers from the unexpended balances of prior year 
appropriations to help offset these requirements. This reduced our need 
for new funding to $79,736,000, the level that has been approved for 
fiscal year 2014.
    For fiscal year 2015, we estimate that total congressional printing 
and binding requirements will be $90,713,000, an increase of just 
$1,226,000 or 1.4 percent, which is a third less than the anticipated 
2.1 percent inflation increase. At this time, we plan to use $5,313,000 
that is available in unexpended prior funds to offset these 
requirements, resulting in our request for $85,400,000 in new funding. 
We are continuing to monitor the liquidation of outstanding obligations 
against our prior year accounts, and should additional prior year 
unexpended balances become available, we will request their transfer 
for fiscal year 2015 purposes.
    The estimated requirements for fiscal year 2015 include a projected 
price level increase of $1,895,000, based on an average 2.1 percent 
rise in printing costs. The effects of the price level increase are 
offset by an estimated $669,000 reduction in volume requirements. The 
volume estimate is derived from historical data. While volume is 
projected to increase for hearings, miscellaneous printing and 
services, bills and resolutions, and the Congressional Record Index, 
volume reductions are projected for all other congressional printing 
and binding categories, chiefly in the categories for the Congressional 
Record, legislative calendars, document envelopes and franks, 
miscellaneous publications, and committee prints.
    Salaries and Expenses Appropriation of the Superintendent of 
Documents.--We are requesting $32,171,000 for this account. This 
represents an increase of $671,000 or 2.1 percent over the funding 
approved in Public Law 113-76.
    The funding we are requesting for fiscal year 2015 will cover 
mandatory pay and related cost increases of $271,000. Merit and other 
pay increases are included for 94 FTE's, a reduction of 20 from the 
level requested for fiscal year 2014. In addition, the requested 
funding covers projected price level increases of $400,000, including 
ongoing systems maintenance and FDsys operating expenses.
    Our total requirements for this account for fiscal year 2015 are 
projected to be $37,238,000. This includes $2,500,000 for the 
development of metadata for the digitized bound Congressional Record 
and Federal Register; $1,067,000 for the FDLP's digital harvesting and 
content management project; $1,000,000 for the historic shelflist 
digitization project; and $500,000 in projects to enhance public access 
to Web-based publications. To cover these costs, there is approximately 
$5,067,000 in unexpended balances from prior year accounts. We will 
request the Appropriations Committees for authority to transfer these 
funds to the Revolving Fund to cover these project costs.
    Revolving Fund.--We are requesting $11,347,500 for this account, to 
remain available until expended. This represents an increase of 
$3,284,000 or 40.7 percent over the funding provided in Public Law 113-
76.
    The request includes $5,331,500 for FDsys projects, including 
$3,800,000 for repository development, search development, and Web app 
and processing development, to maintain consistent delivery of new 
features and functionality associated with the introduction of the next 
generation FDsys, scheduled for fiscal year 2015. In addition, we are 
requesting $1,531,500 for FDsys infrastructure improvements including 
test environment, development environment, storage upgrade, and 
additional bandwidth to accommodate continuing increases in public use. 
The recent report of the National Academy of Public Administration on 
GPO discussed the need for appropriations to provide necessary funding 
for FDsys.
    GPO has been working on the development of our XML-based 
Composition System Replacement (CSR) project, which will replace our 
aging Microcomp composition system. The objective of the project is to 
match the typographical style and page layout of current printed 
publications, as well as support enhanced search, retrieval, data 
formats, and repurposing of data. In fiscal year 2015, GPO plans to 
continue active development of core legislative documents, beginning 
with bills, resolutions, and amendments but also efforts to migrate 
additional publications to XML. We are requesting $3.5 million for this 
purpose, which will cover the costs for hardware, software, and 
staffing needed for project support, development and implementation.
    We are also requesting $2,516,000 for facilities projects, 
including replacement of aging elevators and continuing repairs to our 
roof, acquisition of a new automated utility management system, and 
projects to install upgraded volt transformers, design of a ``free 
cooling'' heat exchange system, installation of an air compressor, and 
a new cooling system for GPO's data center.
    Chairwoman Shaheen, Ranking Member Hoeven, this concludes my 
prepared statement and I am prepared to answer any questions you may 
have.

    [The following are answers to questions submitted by the 
subcommittee to the Government Printing Office:]
               Questions Submitted to Davita Vance-Cooks
     Questions Submitted by Senators Jeanne Shaheen and John Hoeven
                   congressional printing and binding
    Question. The total request for GPO's congressional printing and 
binding for fiscal year 2015 is $85.4 million, an increase of $5.664 
million, or 6.9 percent, to the 2014 level. In addition to the 
appropriations request, GPO plans to utilize $5.313 million of 
unexpended prior year funds to offset further congressional printing 
and binding needs in fiscal year 2015.
    What is the original source of the $5.313 million in unexpended 
prior year appropriations, and why has it not yet been expended?
    Answer. The original source of the $5.313 million in unexpended 
prior year appropriations was from fiscal years 2009 through 2011. 
These funds were not expended because congressional workload was less 
than had been estimated. Each year during the budget development 
process, GPO projects congressional workload requirements based 
primarily on analysis of historical data. However, GPO does not control 
actual workload demands, and as a result actual workload can be lower 
or higher than estimated.
    Question. Why does the appropriations request for congressional 
printing and binding increase by such a relatively large percentage 
between fiscal year 2014 and fiscal year 2015?
    Answer. GPO is seeking funding of $85.4 million dollars for 
Congressional Printing and Binding. This is an increase of $5.7 million 
or 7.1 percent over the current funding level. This increase is due 
primarily to the reduced availability of unexpended prior year funds. 
Congressional Printing and Binding overall workload is projected to 
decrease. The net increase is composed of the following:
  --A $0.7 million decrease due to an overall reductions in workload;
  --A $1.9 million increase for price level and pay increases; and
  --A $4.4 million increase due to a reduction in funds available for 
        transfer to meet program requirements in fiscal year 2015, 
        compared to fiscal year 2014.
    Congressional Printing and Binding program requirements are 
projected to be $90.7 million for fiscal year 2015, before the transfer 
of funds, compared to $89.5 million in fiscal year 2014, before the 
transfer of funds. This represents an increase of $1.2 million over 
fiscal year 2014, which is less than the rate of inflation. Funding 
from transfers of prior-year surplus appropriations is expected to 
offset $5.3 million in program expenses in fiscal year 2015, compared 
with the $9.7 million in prior year funds that was available for fiscal 
year 2014.
    GPO is continuing to evaluate prior year open obligations to 
determine whether additional unexpended balances may be available for 
transfer to the Revolving Fund to help meet our fiscal year 2015 
appropriations requirements. [As of May 5, 2014, GPO had identified an 
additional $2,232,000 in unexpended prior year funds that could be 
applied to its request for funding for Congressional Printing and 
Binding for fiscal year 2015.]
                     composition system replacement
    Question. GPO's fiscal year 2015 request includes $3.5 million for 
the Composition System Replacement project.
    Why does GPO need to replace the current composition system?
    Answer. GPO's current composition system is based on a 30-year-old 
batch composition engine, developed and maintained by GPO, called 
Microcomp, which is still being used to compose the majority of 
congressional documents and select Federal agency publications that are 
printed and published electronically by GPO. GPO has decided to replace 
Microcomp and move GPO to a composition system based on Extensible 
Markup Language (XML), which is the legislative data standard that has 
been adopted by the Senate and the House of Representatives. The 
Composition System Replacement (CSR) is intended to:
  --Replace GPO's current system used to compose congressional and 
        regulatory documents for printing (Microcomp);
  --Move GPO to a composition model that is content centric and based 
        on XML;
  --Match the typographical style and page layout of current printed 
        publications as well as support enhanced features for digital 
        and mobile display, including search, retrieval, and 
        repurposing of data;
  --Be implemented incrementally on a product by product basis (the 
        first release will focus on congressional bills);
  --Integrate with internal and external systems, such as FDsys and XML 
        authoring tools utilized by external customers (e.g., XMETAL, 
        LEXA); and
  --Allow all users (including GPO, congressional, and agency users) to 
        employ XML while maintaining the current functionality 
        available via Microcomp and GPO locator codes.
    Question. Does the $3.5 million cover the entire cost of the system 
upgrade? Or are further development and implementation costs expected?
    Answer. The cost of this multi-year project is currently projected 
at between $15 million and $20 million. To date, $6.4 million has been 
appropriated to GPO's Revolving Fund to remain available until 
expended, and GPO has set aside an additional $2 million for the same 
purpose. The addition of the funds requested for fiscal year 2015 will 
provide us with a little over half of the projected cost. To date, a 
total of $2 million has been expended. The CSR will be deployed 
incrementally on a product by product basis, beginning with 
congressional bills in the first public release targeted for January 
2017.
                          secure credentialing
    Question. GPO produces U.S. passports for the Department of State 
as well as credentials for other Federal agencies.
    Can you provide an overview of GPO's secure credential operations, 
including how long you have been involved in these operations, the 
products you produce, and the relationships you have with Federal 
agencies in producing secure credentials?
    Answer. In the wake of 9/11 and the introduction HSPD-12 and 
related Federal identification requirements, there has been an increase 
in the Government's need for secure credentials. Based on GPO's long 
term experience and expertise with the production of the U.S. passport, 
the establishment of our secure credential capability was endorsed to 
GPO management by GPO's Inspector General in 2005. GPO's proposal to 
set up a secure card center within its Security and Intelligent 
Documents business unit subsequently was approved in fiscal year 2008 
by the Joint Committee on Printing, which since then has also 
approved--on a bipartisan basis--all funding for this program in GPO's 
annual spending plans. In 2010, we became the only Federal agency 
certified by the General Services Administration to graphically 
personalize HSPD-12 credentials. In 2012 the Joint Committee on 
Printing approved the establishment of a COOP capability for our secure 
credential operations. While GPO is not the only provider of such 
requirements for Federal agencies, and while our operation is limited 
in scope, the volume of work processed by our capability has increased, 
as the report of the National Academy of Public Administration, 
Rebooting the Government Printing Office: Keeping America Informed in 
the Digital Age (January 2013), recently concluded.
    As Representative Robert Brady recently pointed out in the 
Congressional Record (May 8, 2014; pp. E719-21),

        Secure-credential work is firmly within the GPO's statutory 
        authority. GPO has a long history of secure credential work, 
        such as with the manufacture of U.S. passport blanks since 
        1926. By definition, passports and all other forms of 
        government credentials involve `printing,' the production of 
        something in printed form. With secure credentials, intricate, 
        multi-color modern printing embedded with anti-counterfeiting 
        features is utterly indispensable to render a document 
        immediately recognizable by handlers as the genuine article and 
        thus inspire the confidence necessary to establish identity, 
        crossings and other purposes.

    GPO provides a government-to-government solution to fulfill the 
requisitions of Federal agencies for secure credentials. Our program is 
staffed by cleared personnel and backed by a secure supply chain. GPO 
serves as a card integrator, working closely with private sector 
providers to obtain the products and services needed to fulfill 
requisitions submitted by Federal agencies. For several years we have 
been an accepted member of the Smart Card Alliance, a consortium of 
private sector companies and Federal agencies including the National 
Institute for Standards and Technology, the Department of Homeland 
Security, the Department of State, the Department of Transportation, 
and the General Services Administration (http://
www.smartcardalliance.org/). We partner with the private sector for 
consulting, fabrication, design, materials, and supplies, essentially 
incorporating the best that industry has to offer into solutions sought 
by Federal agencies that requisition the work from us.
    In this capacity, GPO has served as a valuable resource to a number 
of Federal agencies, including the U.S. Capitol Police, which relied on 
us to provide secure law enforcement credentials for the 2009 and 2013 
Presidential inaugurations. Other work GPO has performed includes 
production of the Trusted Traveler family of border crossing cards 
(NEXUS, SENTRI, FAST), the Global Entry Card, and HSPD-12 card bodies 
enhanced with security printing for the Department of Homeland 
Security; the Medicare card used by Puerto Rican beneficiaries for the 
Department of Health and Human Services; law enforcement credentials 
for approximately 35 Federal agency inspector general and law 
enforcement organizations; the DC One card for the District of Columbia 
Government; a special events badge for the FBI; the family of 
diplomatic credentials and the border crossing card for the Department 
of State; and others. In addition to satisfactorily fulfilling Federal 
agency requisitions for secure credentials, our card production program 
was endorsed in the recent report of the National Academy of Public 
Administration.
    Throughout the existence of our program, we have been open and 
transparent about its operation. As noted above, we are a well-known 
member of the Smart Card Alliance. We are subject to the oversight of 
the Joint Committee on Printing and our House and Senate legislative 
oversight and appropriations committees. Additionally, our program has 
been the subject of oversight by our Office of Inspector General (see 
for example http://www.gpo.gov/pdfs/ig/audits/11-06_AuditReport
(Issued_March_31_2011).pdf); the IG's semiannual reports to Congress 
for several years routinely tracked oversight of the GPO's secure 
credentials program as a ``management challenge'' (see for example 
http://www.gpo.gov/pdfs/ig/semi-annual/11-30-09.pdf). We have kept the 
public informed through press releases (see for example http://
www.gpo.gov/pdfs/news-media/press/09news19.pdf, http://www.gpo.gov/
pdfs/news-media/press/10news39.pdf, and http://www.gpo.gov/pdfs/news-
media/press/11news60.pdf), YouTube videos (see for example http://
www.youtube.com/watch?v=levIYlqIPy0, http://www.youtube.com/
watch?v=ettaBOW4UEA, and http://www.youtube.com/watch?v=mQxH1EZA7lI), 
GPO annual reports to Congress, and other media. Last month, we 
participated in the Science, Technology, Engineering, and Math (STEM) 
Expo held at the Washington Convention Center, where we demonstrated 
for the public the secure credential work we do with production of the 
U.S. passport and other credentials.
    Question. How are these operations funded?
    Answer. GPO provides secure credential products and services on a 
reimbursable basis through GPO's Revolving Fund. None of the funds for 
GPO's secure card capability are appropriated by Congress. As required 
by section 309 of Title 44 of the U.S. Code, GPO's rates for secure 
credentials are set to recover only the direct and indirect costs of 
production, including overhead and the cost of investment in the 
necessary equipment and technology. Total revenues for fiscal year 2013 
were approximately $15 million. By comparison, global revenues for 
member companies in the Smart Card Alliance in 2013 were approximately 
$7.5 billion.
    Question. Is GPO the only provider of secure credentials for 
Federal agencies, and are Federal agencies required to use GPO?
    Answer. In hearings before the House Legislative Branch 
Appropriations Subcommittee for fiscal year 2010, former Public Printer 
Robert C. Tapella said, ``I believe that Federal credentials belong in 
a federally-owned, federally-operated production environment and not in 
the private sector. And I think it is an inherently governmental 
activity'' (Hearings, Part II, p. 166). GPO management today does not 
endorse that position nor would it be practicable. As the National 
Academy of Public Administration recently concluded, ``the GPO is not 
the sole provider of smart cards [secure credentials]. Agencies may 
obtain smart cards from private sector vendors as well'' (Rebooting the 
Government Printing Office, p. 61). Where GPO's services are concerned, 
as long as Federal agencies submit a requisition that complies with the 
relevant provisions of title 44 (certifying that the products requested 
are authorized by law, necessary to the public business, and backed by 
the necessary funding), GPO will perform the work. Federal agencies who 
have contacted GPO to discuss our secure credential capabilities are 
aware of this fact.
    As stated above, as a member organization of the Smart Card 
Alliance we acknowledge the role of the private sector secure 
credentials industry in providing products and services to Federal 
agencies, and we work closely with them in the integration of card 
components to meet the requirements of products requisitioned from us. 
We do not compete against private sector companies for secure 
credential work. GPO provides a limited capability that is available 
for the use of Federal agencies seeking the provision of services in a 
government-to-government setting, staffed by cleared personnel, and 
backed by a secure supply chain. As a postscript, GPO's Security and 
Intelligent Documents (SID) business unit has one FTE (no sales teams) 
responsible for addressing inquiries for SID products and services that 
come from Federal agencies.
    Question. What is GPO's process for informing Federal agencies of 
services provided in this area?
    Answer. GPO's secure credential products and services are an intra-
governmental option for Federal agencies to consider. GPO does not take 
the position that use of our capability is required and as noted above 
we are not the only resource for providing secure credentials. If we 
are asked to do so, we will respond to inquiries from an agency 
interested in learning more about our products and services. We do not 
respond to or take any other action as to Federal agency RFPs 
soliciting bids for providing secure credentials.
    As a public agency we have been transparent in providing 
information about our secure credential operation, including through 
our Web site, just as we do for other GPO products and services. 
However, because secure credentials are a relatively specialized 
variety of Government document, we have found that work in this area 
results primarily from word-of-mouth that leads agencies seeking 
solutions for their secure documents credentials to come to GPO with 
requests for information. Additionally, our secure credential customers 
are also customers for other print services, so they are aware of our 
product and service capabilities. The growth in our secure credential 
operation has come primarily from agencies that have used our print and 
other secure credential services previously. We have one staff member 
who provides information on our secure credential products and 
capabilities.
                      full time equivalents (fte)
    Question. GPO's number of employees has been on a decline as 
technologies have changed.
    How many Full Time Equivalents (FTEs) does GPO currently have?
    Answer. Through the first 6 months of fiscal year 2014, GPO has 
utilized an average of 1,838 FTEs. This includes 86 FTE's funded 
through the Salaries and Expenses Appropriation of the Superintendent 
of Documents. The balance of GPO's FTEs are funded through 
reimbursements to the GPO Revolving Fund.
    Question. What is your goal for fiscal year 2014 and will you reach 
that goal? What is the estimated level of FTEs reflected in your fiscal 
year 2015 budget request?
    Answer. GPO's budget for fiscal year 2014 totals 1,923 FTE's, 
including 94 FTE's for the Salaries and Expenses Appropriation of the 
Superintendent of Documents. Based on results for the first 6 months of 
fiscal year 2014, GPO will be below the budgeted levels for fiscal year 
2014. Actual FTE levels in the business-like Revolving Fund are largely 
dependent on customer demands for services. GPO's budget estimates for 
fiscal year 2015 total 1,923 FTE's, including 94 FTE's for the Salaries 
and Expenses Appropriation of the Superintendent of Documents.

                          OFFICE OF COMPLIANCE

   Prepared Statement of Barbara J. Sapin, Executive Director of the 
                          Office of Compliance
    Madam Chairwoman, Senator Hoeven, and members of the subcommittee, 
I appreciate the opportunity to present this statement on the 
Congressional Office of Compliance's (OOC) budget request for fiscal 
year 2015. I want to thank the subcommittee for its continued support 
of the OOC and its mission of advancing workplace rights, safety, 
health and accessibility for congressional employees and members of the 
public that visit the Capitol.
    The Office of Compliance (``OOC'') is requesting an appropriation 
of $4,020,000 for fiscal year 2015. This is a 3.93 percent increase 
from fiscal year 2014 and reflects the OOC's immediate need to update 
our information technology (IT) infrastructure; provide education 
opportunities to Members, their staffs, and other Legislative Branch 
employees; and ensure that our safety and health program continues to 
protect the congressional community.
         ensuring a model workplace for congressional employees
    The OOC continues to be one of the most cost effective investments 
Congress makes in itself and its personnel. Despite having only 22 
full-time equivalents (FTE) positions inclusive of a part-time Board of 
Directors, the OOC serves the same functions as multiple agencies in 
the Executive Branch at a fraction of the cost, including the Equal 
Employment Opportunity Commission, the Department of Labor, the 
Department of Justice (for access for people with disabilities), and 
the Federal Labor Relations Authority.
    These areas of responsibilities for the OOC go beyond creating a 
model workplace for congressional employees but proactively provide 
savings to the legislative branch for every dollar expended. For 
example, training and education programs on workplace protections 
similar to the ones conducted by the OOC pay dividends far beyond 
reducing complaints, litigation and settlement costs borne by the 
Government. Rather, studies have shown that an effective sexual 
harassment and discrimination training program significantly reduces 
absenteeism, increases productivity and lowers employee turn-over. In 
addition, empirical studies have shown that safety and health 
inspections have a cost-benefit ratio of between $3 to $10 of savings 
for every $1 invested in improving workplace safety. Further, in fiscal 
year 2013, the OOC's in-house mediation program resolved over 70 
percent of employee claims without the need for costly litigation or 
hearings.
                        fiscal year 2015 request
    In developing this year's budget request, the OOC reviewed its 
current operations from a zero base to identify opportunities to reduce 
costs without sacrificing the quality of services to the 30,000 
employees of the legislative branch. Between fiscal year 2010 and 
fiscal year 2014, the OOC's funding had been reduced by approximately 
$537,000 which represented over 12 percent of our fiscal year 2010 
budget.
Education and Training
    While OOC has a statutory mandate to train and educate 
Congressional employees on their rights and responsibilities under the 
Act, budget cuts limited our ability to do so. Reductions in this 
necessary training typically cost the Government more in litigation and 
personnel costs. In fiscal year 2013, the OOC analyzed the potential 
savings that came from mandatory training in the executive branch. We 
saw that, although there was a brief spike in litigation of 
discrimination claims during the training period, this was followed by 
a dramatic decline in litigation overall, as mandatory training was 
implemented, employees were educated about their rights, and management 
level employees were trained to create model working environments and 
avoid actions which could give rise to unnecessary litigation. Findings 
of discrimination also dramatically decreased after the mandate for 
training was put into effect.
    Follow-up studies have also shown that an all-inclusive training 
approach, where both supervisors and employees are trained together, 
has the greatest impact on workplace behavior. In fiscal year 2014, we 
have been able to increase our training budget to strengthen training 
across campus and for fiscal year 2015, we plan to extend educational 
opportunities throughout the legislative community. This will include 
developing web-based modules and expanding in-person training sessions. 
Our fiscal year 2015 Budget request supports our initial plans to 
broaden our outreach program.
Information Technology Improvements
    A large part of our request for additional funds in fiscal year 
2015 is for the development and maintenance of a new case management 
system. This system will replace an outdated system that is unable to 
expand to accept many of the current processes used by most Federal and 
State judicial and administrative forums. For example, the OOC's 
current data system platform has been unable to keep pace and cannot be 
modified to accept money saving advancements such as paperless case 
files and electronic filing. Although relatively novel in 2007 when the 
current system was first installed, electronic filing is now the 
standard in Federal and State courts and most administrative forums. 
Use of these new systems eliminates the waste and costs of multiple 
copies of pleadings and other litigation documents and significantly 
reduces uncertainty on issues of filing timeliness. Electronic filing 
and the migration of litigation records from a paper format to an 
electronic format is an involved process that includes developing a 
system that supports digital signatures, allows privacy and public 
access portals, and facilitates docket and document management.
    In view of the increased requests from the congressional community 
for data and reports on the use of the OOC services, continued reliance 
on our outdated system seriously hinders our case processing and 
compromises information management. The current system cannot be 
modified to meet the increased demands for data and statistics 
regarding our statutorily mandated programs. The platform of the 
current system is unreliable in compiling data and issuing accurate 
reports. This means that in order to provide the reports requested by 
congressional committees and Member offices or required for the Annual 
Report, data must be compiled manually. While these manually completed 
reports contain accurate information, they are time consuming to 
prepare. Moreover, the current system is not flexible enough to provide 
for any additional reports that may be needed or requested. In 
addition, the current platform cannot support the proactive trend 
analysis that the OOC needs to identify problem areas in legislative 
branch workplaces early on. Under a new system, the OOC would be able 
to monitor employee inquiries and complaints in particular employing 
offices and then work with those entities through training and 
education to address the issues proactively instead of responding to 
them in costly litigation. The changes and the development of a new 
case management system will not only provide for more streamlined 
service delivery by our office to the congressional community but will 
also allow cost savings in the long run.
    The OOC will require the appropriations allocation discussed in our 
fiscal year 2015 budget to complete the development and maintenance of 
a system that is affordable and can be tailored and scaled to the 
requirements of our mission.
Health and Safety Inspections
    The past cuts in funding forced us to significantly reduce 
Occupational Safety and Health (`OSH') inspector hours. Starting in 
fiscal year 2012, the OOC developed and instituted a risk-based 
approach to the biennial OSH inspection. With this approach, OOC 
inspectors targeted high-risk and high-consequence areas such as 
machine shops, high voltage areas and child care centers in lieu of 
more comprehensive inspection of the Capitol campus. While this 
approach focuses our limited resources, it also requires specialized 
expertise because such inspections are more complex. Last fiscal year, 
our risk-based inspections were compromised by reduced inspector hours. 
We experienced a 6 month delay in completing the inspections for the 
112th Congress. We managed to rebuild our inspection team to consist of 
four contract inspectors (two full time and two part time) and two 
employee inspectors. These inspectors are working to complete both the 
112th and 113th biennial inspections. The same inspectors have been 
trained to conduct the biennial Americans with Disabilities Act (ADA) 
inspections. After an increase in funding in fiscal year 2014, we are 
encouraged that we can continue to make progress in our inspections and 
in fiscal year 2015, we look forward to moving two contract inspector 
positions to vacant employee positions. This move is expected to save 
money and help us achieve a stable, experienced workforce. To 
accomplish this, we are requesting a shift in dollars from 2 year 
contract funds to 1 year money for staff.
Administrative Dispute Resolution Program
    The Office is also requesting minimal funds to ensure that the OOC 
administrative dispute resolution (ADR) program is at full operational 
capacity. This program is a critical part of the Congressional 
Accountability Act (CAA). Through mandatory counseling and confidential 
mediation, and the option of bringing an administrative complaint to 
the OOC, Congress, in passing the CAA, anticipated that workplace 
disputes could be handled confidentiality at the earliest stages. By 
its very nature, the program is unpredictable in the number of 
constituents served and complexity of hearings. Costs can fluctuate 
greatly over the course of the year. For instance, as of the date of 
this testimony, complaints filed by congressional employees with our 
office were up over 40 percent from the last fiscal year. While the 
number of complaints filed in Federal court during the same time period 
is about \1/3\ of that number. The ADR program is customer driven and 
because the number of complaints brought to OOC varies considerably, 
OOC must maintain the necessary funding to ensure that each complaint 
can be expeditiously processed.
    We have managed to maintain the high level of service for the 
program through judicious assignment of Hearing Officers, exploration 
with other Federal agencies on the use of trained Hearing Officers, 
cross training of existing staff, and bringing mediations in-house. 
Using senior employees who are highly trained in-house mediators has 
resulted in significant costs savings to the OOC while still providing 
unparalleled service. For instance, in fiscal year 2013 our in-house 
mediators conducted 80 mediations. Of those 80 mediations over 70 
percent were resolved without further action by the complainant. This 
resolution rate for compelled mediation is well above current 
alternative dispute resolution standards and comes close to mirroring 
voluntary mediation success rates.
Information Technology
    The fiscal year 2015 IT budget request reflects OOC's focus on 
other IT needs in addition to the case management system, such as 
improvements to current data systems used in health and safety and ADA 
inspections, upgrading security to meet current threat levels, 
enhancement of video conferencing equipment to save travel money for 
Hearing Officers, and consolidating IT functions.
                               conclusion
    The Office of Compliance and its Board of Directors are proud of 
the level of services we deliver to the regulated community. As the 
Executive Director, I want to make sure that our highly professional 
and talented staff members have the tools they need to perform their 
statutorily mandated functions. While our budget is small, our mission 
is large and we work very hard to make the most of the funding that we 
do receive. Our small size and interrelated missions mean we can ill-
afford to underfund one statutorily mandated area and still expect to 
succeed in the others. We all believe in the mission of the Office of 
Compliance and work to ensure that we continue to successfully serve 
the congressional community. We thank the subcommittee again for the 
opportunity to submit this statement. My staff and I are pleased to 
answer any questions that members of the subcommittee may have.

    [The following are answers to questions submitted by the 
subcommittee to the Office of Compliance:]
                Questions Submitted to Barbara J. Sapin
     Questions Submitted by Senators Jeanne Shaheen and John Hoeven
    Question. Please describe the deficiencies in the Office of 
Compliance's (OOC's) current case management system and what 
capabilities could be added under a new, or upgraded, case management 
system.
    Answer. We obtained our current case management system in 2007 to 
manage case docketing and correspondence with the parties in dispute 
resolution proceedings, and to generate mandated annual statistical 
reports. Based on cost considerations, the OOC purchased a commercial 
off-the-shelf software program that was adapted slightly to manage the 
OOC's alternative dispute resolution process from its confidential 
counseling stage to mediation and ultimately to the administrative 
hearing process. Shortly after the system came on-line in 2007, its 
shortcomings and limitations began to reveal themselves as the OOC 
mission evolved and demands on the system grew. The following are some 
of those identified problem areas:
    Electronic Filing: The OOC's current data system platform cannot be 
modified to accept cost and time saving advancements such as paperless 
case files and electronic filing. Today, electronic filing is the 
standard in Federal and State courts and most administrative forums. In 
talking to our stakeholders, they have all asked for increased 
electronic access. Electronic filing eliminates the need for multiple 
paper copies of pleadings and other litigation documents, significantly 
reduces uncertainty on issues of filing timeliness, and reduces postage 
and archiving costs.
    Trend Analysis & Data Management: Despite numerous attempts, we 
have been unable to modify the current system to meet the increased 
demands for data and statistics regarding our statutorily mandated 
programs. The platform of the current system is unreliable in compiling 
data and issuing accurate reports. This means that in order to provide 
the data requested by congressional committees and Senate offices or 
required for the Annual Report, the information must be compiled and 
verified manually. While these manually completed reports contain 
accurate information, they are time consuming to prepare. Moreover, the 
current system is not flexible enough to provide for any additional 
reports, queries, or cross referencing that may be needed or requested, 
or for continuous monitoring of expenses related to the dispute 
resolution program. The current platform cannot support the proactive 
trend analysis that the OOC wants and stakeholders need to identify 
problem areas and best practices in legislative branch workplaces.
    Cloud-Based Access: The current system is hosted internally by our 
office, so it is not accessible through the Internet or any other 
cloud-based system. This in-house hosting requires that OOC employees 
have two computer terminals--one for internal use of the case 
management database and another for outside email and Internet access. 
The internal case management program could not be updated remotely by 
our vendor for timely support and maintenance; nor could it be expanded 
to include Internet based e-filing systems. Problems or issues with the 
program would remain unresolved until the vendor could address them 
onsite at the OOC.
    Proposed System: The OOC is developing an updated case management 
system that will provide the platform for electronic filing. This 
system will facilitate secure and private electronic docket and 
document management. Under an updated system, the OOC will be able to 
rely on reports that will not only contain accurate statistics on the 
use of the OOC's services, but will allow us to do reliable trend 
analysis. Thus, the OOC would be able to monitor employee inquiries and 
complaints in particular employing offices and then work with those 
entities through training and outreach to address the issues 
proactively instead of responding to them later in costly litigation. A 
new system will also include financial data related to funds spent on 
contractors in the various stages of mediation and in hearings. This 
information will be invaluable for future planning and budgeting. 
Although the OOC cannot control or predict the number of cases that 
will go to mediation or hearing, this financial data will help staff 
predict future needs. With the improvements in firewalls, cloud-based 
security, and other data protection advancements, a new system will 
provide for secure cloud-based access allowing the OOC to transfer its 
data to a remotely hosted site accessible via the Internet. This will 
increase flexibility in maintenance and upkeep by our vendor, 
facilitate continuation of operations in the event of an emergency, and 
increase the capacity for OOC staff to telework.
    The OOC will require the appropriations allocation discussed in our 
fiscal year 2015 budget to complete the development and maintenance of 
an affordable system that can be tailored and scaled to the 
requirements of our mission.
    Question. How do you obtain the services of hearing officers and 
how are they compensated?
    Answer. As required by the Congressional Accountability Act (CAA), 
the OOC maintains a list of members of the bar who are retired judges 
of the Federal courts and current or former Federal administrative 
judges to serve as hearing officers for administrative cases before the 
OOC. In developing the list, the Executive Director considers 
candidates recommended by the Federal Mediation and Conciliation 
Service and the Administrative Conference of the United States. 
Recommendations for possible hearing officers have also come from the 
Department of Labor, the Merit Systems Protection Board, and the 
Occupational Safety and Health Review Commission. All of the hearing 
officers on the list have experience presiding over labor and 
employment law cases or are experts in technical matters relating to 
Americans with Disability Act (ADA) accessibility or occupational 
safety and health. Their qualifications and credentials have been 
thoroughly reviewed by the OOC prior to their inclusion on the list.
    When an administrative complaint is filed with the OOC, the 
Executive Director appoints on a rotational or random basis, one of 
these judges to serve as the hearing officer for the case. Each hearing 
officer is compensated for his or her services at an hourly rate 
negotiated between the OOC and the hearing officer. The hourly rate is 
determined at the beginning of each fiscal year and the hearing 
officer's compensation comes from the OOC's budget.
    Question. How does OOC allocate and utilize its FTEs considering 
that OOC's responsibilities cover multiple Federal agencies?
    Answer. Many of our employees are dual and triple hatted. For 
example, our inspectors conduct safety and health inspections and ADA 
access inspections. Our attorneys serve as investigators, prosecutors, 
and trainers. The manager of our dispute resolution program also 
conducts most of our mediation sessions, seeking to resolve claims at 
an early stage in the process. Our Chief Financial Officer handles our 
budget and financial matters as well as managing our procurement 
processes. Our Legislative Affairs Specialist covers public affairs, 
media communications, and our publications program. Our Accounting/
Staff Assistant also handles human resources issues. The Dispute 
Resolution Counselor manages special projects and serves as our 
Management Analyst, in addition to counseling covered employees. Our 
Deputy Executive Directors for the Senate and House of Representatives 
not only have the statutory responsibilities directly related to Senate 
and House activities, but they also have specific responsibilities for 
processing cases filed with the OOC. We contract for hearing officers, 
information technology support, outside mediators, and inspectors as 
workload demands and funding permits.
    We follow existing best practices, as identified in the 
Congressional Accountability Act and elsewhere. For example, we apply 
the Occupational Safety and Health (OSH) standards from the Department 
of Labor and the ADA public access regulations from the Department of 
Justice. We make adjustments for congressional workplaces where it 
makes sense to do so. We leverage technology for efficiencies, such as 
using inexpensive or free software for note taking and map drawing 
during inspections. We are developing a new case management system that 
will efficiently track case activity, will support electronic filing, 
and will provide data for effective training and outreach.
    Question. What services do you provide to Senate members and their 
staff?
    Answer. The Administrative Dispute Resolution program provides 
advice, information, confidential counseling and mediation, quality and 
timely administrative hearings, and appellate review to Senate members 
and their staff. The OOC also provides training on discrimination and 
retaliation issues for covered offices and employees, including Senate 
offices. The CAA mandates that we provide this training to the offices, 
but there is no mandate that staff or Members attend our training 
courses. So, we must be proactive in reaching the offices on Capitol 
Hill and in the States. We can contact employing offices and employees 
through the Senate e-mail system and by direct e-mail when we have 
addresses, and through content provided on our Web site. We reach out 
to Senate offices to arrange training and respond to requests initiated 
by the offices. We also serve as a resource for legislative branch 
safety and health professionals who have questions about how to comply 
with a standard or how to design a safety procedure or program. We are 
transparent with our ADA public access inspections, inviting the AOC to 
accompany us as we check for barriers for staff and visitors with 
disabilities on the Capitol campus. Our OSH biennial inspections 
provide a critical measure of safety for workers in high hazard areas. 
We also provide technical assistance to unions and employing offices 
with labor-management relations questions, and assist them in resolving 
their unfair labor practice issues.
    Question. Your statement indicates that in fiscal year 2014, you 
are increasing training to the covered community, what does that 
include and what do you plan to do in fiscal year 2015 to expand this 
training?
    Answer. In fiscal year 2014, the OOC prioritized training to the 
covered community as a proactive measure to lower claims and improve 
workplace conditions by expanding its educational initiatives for 
employees and managers. These measures are proven to lower claims and 
make for a more productive workforce. This includes working directly 
with various legislative entities to develop and implement training 
based on their operational needs and areas of identified concern for 
the OOC. For example, this year the OOC began working with the United 
States Capitol Police (USCP) on various training projects, including 
training the USCP's Human Resources staff on provisions relating to 
reasonable accommodations under the ADA and the Rehabilitation Act as 
applied by the CAA, and by presenting informational briefings at the 
officer's morning roll call. In addition, we have revised and enhanced 
our district staff training for both Senate and House employees through 
the Congressional Research Service and are actively working with 
individual committees and Member offices to target training to these 
audiences.
    For fiscal year 2015, we intend to make greater use of our current 
outreach tools to advertise our training services and to stress the 
benefits of training to offices and instrumentalities. This includes 
working with the House Learning Center to advertise new training 
opportunities and to conduct joint training to expand our reach to 
House staff. We hope to do the same with the Senate. Further, we have 
modified an attorney position to include significant instructor duties 
in order to expand our in-person training capabilities to Member 
offices and committee staff.
    With additional funding, we will be able to develop and offer Web-
based content including Webinar training which can reach previously 
underserved State offices and provide training to legislative personnel 
wherever they are. Our new case management system will also allow us to 
monitor trends in issues coming to our office and identify particular 
topics and best practices that we should emphasize in training. This 
data-driven training approach is a proactive strategy to address 
problems before costly and disruptive claims are made.
    We will also continue our very successful Distinguished Speaker 
series which provides an alternative learning opportunity for 
congressional staff. Previous topics have included women's equality in 
the workplace and addressing ``hidden disabilities'' under the 
Americans with Disabilities Act. These events have also served as an 
excellent opportunity to further advertise the services of our office 
and promote workplace rights under the CAA.
    Question. Other Federal agencies and legislative branch entities 
are moving to Web-based training as both a cost-effective and 
convenient tool for training delivery. What steps is OOC taking to move 
in this direction?
    Answer. Research has shown that Web-based instruction, correctly 
implemented, can have a greater impact than most other modes of 
learning, including in-person training. Although Web-based training can 
save agencies thousands in training costs over years, the initial 
start-up costs are quite high. Initial costs include the development of 
Web-based training modules, licensing of software, and obtaining the 
necessary technology infrastructure to host such training. As Web-based 
training development will require a significant investment, without 
additional training funds, the implementation this type of training 
will have to be done incrementally. To work around the resource issue, 
the OOC has attempted to partner with the Federal Bar Association to 
use its Webinar equipment, but we are still searching for a way to 
reach our respective audiences through the same programming. We are 
currently exploring ways in which we can work with Senate and House 
training/education offices to develop e-learning platforms. We will 
make whatever progress we can within our budget and will continue to 
search for other partners.
    Ultimately, the OOC's strategic goal is to establish a Web-based 
program that will allow both module learning on specific topics and 
live Webinars. Webinars allow for live instruction to remote offices 
including currently underserved State and district offices. These 
programs allow a presenter to not only teach a topic but also to 
interact with participants in real-time through a virtual chat 
function. As a supplement to these Webinars, the OOC hopes to host 
module learning that can be accessed 24 hours a day by users from 
either their office computers or from their home devices. These 
platforms have the added benefit of being available to all 
congressional offices and legislative branch agencies.
    Lastly, the OOC continues to develop and offer in-person training 
to congressional offices. This training has recently included 
individual Member and various Committee offices across campus and has 
been positively received. While in-person training presents an 
opportunity for OOC staff to interact with the Capitol community and to 
hear the concerns of individuals across campus regarding workplace 
rights, it is difficult from a resource and logistic standpoint to 
bring busy staff together. As a result, we view this kind of training 
as only one piece of a larger outreach and educational strategy.
</pre></body></html>
